Ti

meee  CQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-97

MASSACHUSETTS LOBSTERMEN’S
ASSOCIATION, ET AL.,
Petitioners,
v.
WILBUR ROSS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICI CURIAE
UTAH COUNTIES AND UTAH REPRESENTATIVES IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5059 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 3 Ist day of August, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

oreren| Kevee. 0. Linoo? Onda bh. Ole

Notary Public

‘My Comm. Exp. September 5, 2023

 

 

Affiant 40084
